<html>
<title> - SOLUTIONS TO IMPROVE FEDERAL HIRING</title>
<body><pre>[Senate Hearing 116-98]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 116-98
 
                  SOLUTIONS TO IMPROVE FEDERAL HIRING

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2019

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
                        
                        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
 

 
 
                             ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-459 PDF          WASHINGTON : 2019
 
 
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
ROB PORTMAN, Ohio                    KYRSTEN SINEMA, Arizona
MITT ROMNEY, Utah                    THOMAS R. CARPER, Delaware
RICK SCOTT, Florida                  JACKY ROSEN, Nevada
MICHAEL B. ENZI, Wyoming
                     Chris J. White, Staff Director
                     James D. Mann, Senior Counsel
                Eric A. Bursch, Minority Staff Director
              Jackie A. Maffucci, Minority Policy Advisor
         Mallory B. Nersesian, Subcommittee and Document Clerk
         
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Sinema...............................................     1
    Senator Rosen................................................    12
    Senator Carper...............................................    14
Prepared statement:
    Senator Lankford.............................................    29
    Senator Sinema...............................................    31

                               WITNESSES
                         Tuesday, July 30, 2019

Yvonne D. Jones, Director, Strategic Issues Team, U.S. Government 
  Accountability Office..........................................     3
Angela Bailey, Chief Human Capital Officer, U.S. Department of 
  Homeland Security..............................................     4
Daniel R. Sitterly, Assistant Secretary for Human Resources and 
  Administration, U.S. Department of Veterans Affairs............     6

                     Alphabetical List of Witnesses

Bailey, Angela:
    Testimony....................................................     4
    Prepared statement...........................................    51
Jones, Yvonne D.:
    Testimony....................................................     3
    Prepared statement...........................................    33
Sitterly, Daniel R.:
    Testimony....................................................     6
    Prepared statement...........................................    56

                                APPENDIX

Responses to post-hearing questions for the Record:
    Ms. Jones....................................................    66
    Ms. Bailey...................................................    73
    Mr. Sitterly.................................................    88


                  SOLUTIONS TO IMPROVE FEDERAL HIRING

                              ----------                              


                         TUESDAY, JULY 30, 2019

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:20 p.m., in 
room 342, Dirksen Senate Office Building, Hon. James Lankford, 
Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Scott, Sinema, Carper, and 
Rosen.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Good afternoon, everyone. Welcome to 
today's Subcommittee hearing titled ``Solutions to Improve 
Federal Hiring.'' We are here today to address the hiring 
crisis in the Federal Government. It takes too long to fill 
vacancies, causing agencies to miss out on top talent. I am 
sure that is a shock to all the people that are at this front 
table. They have never heard that before.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    This is not a new problem. It is a universal problem, and 
it is growing, unfortunately, and as we talk about it we do not 
seem to be solving it. So today is going to be focused a lot on 
solutions, how we can get the best and brightest candidates, 
and how they will not have to wait around for 3 or 4 months to 
be able to actually get into the process, and how we can help 
human resources (HR) folks, as well, address the issues with 
the best possible hiring authorities that they may need at that 
spot.
    So let me defer to my Ranking Member, Senator Sinema, for 
her opening statement.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. I appreciate you 
holding today's hearing with these witnesses.
    Improving Federal hiring and retention is an important 
topic, and the Department of Veterans Affairs (VA) and the 
Department of Homeland Security (DHS) play critical roles in 
taking care of Arizona veterans and protecting our 
constituents. The first step toward accomplishing this mission 
is having the right workforce.
    I have a longer statement that I will submit for the 
record.\1\ I apologize, I may need to leave early to attend a 
signing ceremony at the White House, but I want to thank all 
our witnesses for being here today and I look forward to 
today's conversation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    Senator Lankford. Thank you. We also have votes going on at 
2:45, and so there are a few things happening this afternoon, 
but we want to make sure that we get as many things as possible 
on the record as quickly as we can. So at this time I want to 
proceed with the testimony from our witnesses, because that is 
why we came, to be able to go through this.
    Yvonne Jones is the Director of Strategic Issues Team for 
the U.S. Government Accountability Office (GAO), where she 
manages teams analyzing Federal Government human capital 
issues. Prior to joining GAO in 2003, Ms. Jones worked at the 
World Bank where she led the implementation and evaluation of 
economic development projects in the education, commercial, 
debt reduction, and finance sectors. Thank you for being here.
    Angela Bailey is the Chief Human Capital Officer (CHCO) at 
the U.S. Department of Homeland Security, where she has served 
since January 2016. Prior to DHS, Ms. Bailey worked at Office 
of Personnel Management (OPM) as the Chief Operating Officer 
(COO), Deputy Associate Director for Recruitment and Hiring, 
and the Chief Human Capital Officer. Thank you, as well, for 
your experience and for being here.
    Dan Sitterly is the Assistant Secretary for Human Resources 
and Administration at the Department of Veterans Affairs, a 
post he has held since January, so you are the long-term 
veteran of the group here. Prior to joining the VA, Mr. 
Sitterly served as the Principal Deputy Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs. He began his 
career in the Air Force as an enlisted member in 1976. Thanks 
very much for that service.
    It is our tradition in this Subcommittee to swear in our 
witnesses, so if you would not mind standing, please, and raise 
your right hand.
    Do you swear the testimony you are about to give before 
this Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Jones. I do.
    Ms. Bailey. I do.
    Mr. Sitterly. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect all the witnesses answered in the affirmative.
    We are using a timing device, just to be able to help 
track. We will give you about 5 minutes for oral testimony, if 
you can stick as close to that as you possibly can. There is a 
wonderful button that says ``talk'' in front of you, and you 
push it when it is your turn to talk, because that will turn 
that microphone on. We are very grateful to receive your 
testimony.
    Ms. Jones, you are first.

  TESTIMONY OF YVONNE D. JONES,\1\ DIRECTOR, STRATEGIC ISSUES 
          TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Jones. Thank you. Chairman Lankford, Ranking Member 
Sinema, and Members of the Subcommittee, thank you for the 
opportunity today to discuss what can be done to close mission-
critical skills gaps and to improve Federal hiring. As we have 
long reported, strategic human capital management plays a 
critical role in maximizing the government's performance and 
assuring its accountability to Congress and to the Nation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jones appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    The Federal Government faces long-standing challenges in 
strategically managing its workforce. For that reason, 
strategic human capital management has been a GAO high-risk 
area since 2001. Since then, Congress, the Office of Personnel 
Management, and some agencies have made progress toward 
addressing these challenges.
    Skills gaps caused by insufficient number of staff with 
critical skills and inadequate workforce planning contributed 
to adding strategic human capital management to the high-risk 
list. Skills gaps affect individual agencies but also cut 
across the entire Federal workforce in areas such a 
cybersecurity and providing health care.
    Insufficient numbers of staff with critical skills can also 
be due to staff retirements, and if not carefully managed, 
anticipated retirements can widen skills gaps or open new ones. 
GAO analysis has shown that more than 31 percent of Federal 
employees on board at the end of fiscal year (FY) 2017 would be 
eligible to retire in the next 5 years.
    Agencies' missions have evolved and employees' expectations 
of work and the workplace are changing. Further, an 
increasingly volatile world makes understanding and responding 
to evolving issues and trends essential. In March 2019, we 
reported on key talent management strategies that can help 
agencies better manage the workforce. Here are some selected 
practices we identified related to recruiting, hiring, and 
engaging the Federal workforce.
    One, recruit continuously and start the hiring process 
early in the school year. Hiring students is critical to 
ensuring that agencies have a range of experience levels for 
succession planning and providing a talent pipeline. Agencies 
facing early fiscal year funding uncertainties can overcome 
this timing challenge by recruiting continuously and starting 
hiring processes early in the school year.
    Two, write user-friendly vacancy announcements. We have 
found that some Federal job announcements were unclear to 
applicants and delayed hiring. When hiring managers partner 
with human resource staff, agencies can develop more effective 
vacancy announcements.
    Three, strategically leverage available hiring and pay 
flexibilities. To help ensure agencies have the talent they 
need, they should explore all existing hiring authorities. A 
variety of special pay authorities can help agencies compete 
for top talent. The GAO has found that agencies use them for 
only a small number of employees.
    Four, encourage rotations and other mobility opportunities. 
Agency chief human capital officers have said that in some 
cases lateral mobility opportunities such as rotations and 
opportunities to gain experience in other sectors can help 
employees gain new skills more cost-effectively than training, 
particularly for rapidly changing skill sets. However, few 
employees move horizontally because managers are sometimes 
reluctant to offer opportunities that may result in employee 
transfers.
    In conclusion, OPM has instituted numerous efforts to 
assist agencies in addressing mission-critical skills gaps 
within their workforces. However, as of December 2018, OPM had 
not fully implemented 29 of our recommendations since 2012, 
relating to this high-risk area. We will continue to monitor 
OPM's efforts to implement our recommendations.
    Finally, we note that without better talent management 
strategies the Federal Government's ability to address the 
complex challenges facing the country may be compromised.
    Chairman Lankford, Ranking Member Sinema, this completes my 
prepared statement. I would be pleased to respond to any 
questions you may have at this time.
    Senator Lankford. Thank you, Ms. Jones. Ms. Bailey.

  TESTIMONY OF ANGELA BAILEY,\1\ CHIEF HUMAN CAPITAL OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Bailey. Chairman Lankford, Ranking Member Sinema, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the 
Department of Homeland Security's efforts on hiring and 
retention.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Bailey appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    DHS employees are on the front lines, executing our mission 
each and every day, performing extremely difficult work under 
some of the most challenging circumstances and conditions. At 
the same time, our employees are performing these incredibly 
important duties, the approximately 240,000 men and women that 
make up the Department worry about the same things that all 
Americans worry about, including student loan debt, making it 
on time to pick up their children from daycare or school, and 
missing yet another family vacation due to work obligations.
    During the partial shutdown earlier this year, 86 percent 
of the DHS workforce continued to work without pay, and most of 
those employees were our frontline law enforcement officers and 
agents who face danger each and every day. They put on their 
uniforms, drove long distances in some cases, came to work, and 
performed their duties to the best of their abilities, despite 
concerns about pay, child care, transportation, and other 
stresses.
    A little-known fact and often overlooked statistic in the 
Federal Employee Viewpoint Survey (FEVS) results is that 94 
percent of DHS employees said that they were willing to put in 
extra effort to get the job done, and almost 90 percent said 
that the work they do is important.
    Given their dedication and all that DHS employees face, my 
job is to help DHS achieve its mission by keying in on two very 
important areas--hiring and retention. Our focus in both areas 
is forward-leaning.
    First, we begin with workforce planning, determining the 
types of skills we need, not only for today but 5 to 10 years 
from now as well. Next, we have devised a multi-pronged 
recruiting strategy that takes into account how and where best 
to ``buy or build'' the talent we need, drawing on all segments 
of society. This is coupled with an innovative and streamlined 
hiring process that has seen a 34 percent reduction in time-to-
hire across DHS, down to an average of 107 days.
    The reason these strategies are so important is that by 
ensuring our positions are filled with the right leaders and 
technically skilled and competent personnel, we can drive down 
overtime, shorten deployments, and create a better work-life 
balance for our employees--all of which our employees have told 
us through the FEVS and other focus groups they desire.
    Our hiring strategies actually help us retain our talented 
workforce. However, filling positions is not enough to retain 
our employees. We also need to provide them with the tools 
necessary to deal with all that the job and life throws their 
way.
    As a result, we have put a special emphasis on taking care 
of our employees and their families as the cornerstone of our 
retention strategy. Our initiatives include programs and 
training to assist with general stress, dependent care, 
personal relationships, mental health, and financial concerns.
    These programs, coupled with our traditional retention 
strategies, such as cyber retention pay, special salary rates, 
student loan repayments, child care subsidies, alternative work 
schedules, and employee engagement help round out the 
overarching DHS retention strategy.
    Despite these efforts, there is always more that can be 
done. One way for Congress to help us is to champion our 
legislative proposal, the Department of Homeland Security 
Enhanced Hiring Act. DHS seeks to use this authority in an 
effort to streamline and simplify the agency's hiring 
authorities in a manner that ensures the Department is able to 
expeditiously hire the best-qualified candidates for mission-
critical positions and sustain our exemplary record of hiring 
veterans. I respectfully request that Congress expeditiously 
take up and pass our legislation.
    I cannot stress enough the commitment of DHS employees to 
the mission and the difficult nature of their work. My goal is 
to do everything we can to lessen the burden on our employees 
and retain our highly-skilled, mission-driven workforce. We 
will continue to identify efficiencies and retention 
initiatives and implement them smartly across the Department.
    Thank you again for the opportunity to testify today. The 
Department would not be successful without your support and the 
support of our brave men and women who sacrifice each day to 
make our country safe.
    I look forward to your questions.
    Senator Lankford. Thank you. We look forward to asking you 
questions, as a matter of fact.
    Mr. Sitterly.

  TESTIMONY OF DANIEL R. SITTERLY,\1\ ASSISTANT SECRETARY FOR 
HUMAN RESOURCES AND ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Sitterly. Chairman Lankford, Ranking Member Sinema, 
Members of the Subcommittee, thank you for the opportunity to 
discuss the Department of Veterans Affairs' view on ways to 
modernize the hiring process and to retain our ability to be a 
competitive employer in the health care industry. As a 34-year 
veteran of the United States Air Force (USAF) I have both a 
personal and a professional interest in ensuring we get this 
right at the VA.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sitterly appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    As the operator of the largest integrated health care 
delivery system in America, VA successfully attracts and 
retains high-quality talent, and VA's overall workforce has 
continue to grow. This growth is directly responsive to an 
increased demand for services, which is the result of improved 
access, reduced wait times, improved quality, enhanced veteran 
satisfaction, and overall mission growth.
    Most of the additional staffing in the VA has been in the 
clinical occupations. VA appreciate the work Congress has done 
to provide flexibilities to support the recruitment and 
retention of talent to care for our Nation's veterans. That 
said, VA still contends with challenges presented by the 
complexities of multiple pay and personnel systems, and 
compounded by the changes in market play allowed in Title 38.
    As health care demand increases, and shortages of health 
care workers grow, private-sector employers are quick to adjust 
to changes in local labor markets and modify starting salaries 
and total compensation packages to attract top talent. While VA 
recruits employees and applicants who are willing to accept 
lower compensation to be a part of an organization with such a 
noble mission, VA faces challenges in our ability to attract 
and then retain quality health care professionals.
    Recruitment and retention efforts for physicians are often 
challenged by the pay limitations in statute. For example, the 
San Francisco Medical Center is in one of the highest cost-of-
living markets. Highly specialized surgeons in that market 
receive more than $500,000 in compensation, which the VA salary 
cannot match.
    Despite challenges, VA employs a variety of tools to 
attract and retain quality talent. These tools include a 
powerful mission of service to veterans and their families, a 
robust training pipeline for a majority of our Nation's 
physicians, strong employee engagement, direct hiring 
authorities, and strategic workforce planning for hard-to-fill 
occupations and medical center directors. VA strategically 
allocates monetary incentives to close skill gaps and provide 
greater flexibility in the recruitment, relocation, and 
retention--the three R's--of highly qualified VA professionals. 
In fiscal year 2018, VA spent more than $50 million on these 
incentives.
    VA joined efforts with the Department of Defense (DOD) to 
recruit transitioning service members. We launched a direct 
marketing campaign to target military medical professionals 
currently transitioning out of the military. VA has also 
partnered with the Department of Defense to hire military 
spouses through the Military Spouse Employment Partnership. We 
made significant progress in filling medical center director 
positions through a vigorous national recruitment strategy.
    Outcomes show that the VA is on the right track. Veterans 
are well served and are receiving the same or better care at VA 
medical centers than patients at private sector hospitals. 
Veterans who are admitted for heart attacks, severe chronic 
lung disease, heart failure, and pneumonia have a better chance 
of survival beyond 30 days after discharge from a VA hospital 
than non-VA hospitals.
    According to a study in the Journal of the American Medical 
Association, VA average wait times are shorter than those in 
private sector for primary care. VA recently reached a 
telehealth milestone, achieving more than one million video 
telehealth visits last year. At the same time, almost 90 
percent of the 1.5 million veterans surveyed said they trust 
the VA.
    As one of the top ten largest employers within the Federal 
Government, VA continues to enhance employee engagement. In 
April, Secretary Wilkie approved VA's first-ever employee 
engagement enterprise-wide plan which emphasize the principles 
of servant leadership, in which leaders are encouraged to seek 
feedback year-round.
    As I like to say, ``happy, engaged, empowered employees 
make for a positive veteran experience, and also helps mightily 
with retention.''
    We at the VA also appreciate Congress' continued support to 
recruit, hire, and retain a high-quality workforce that 
provides the best possible care to veterans. The competition 
for talent in the health care industry is increasingly 
competitive. Shortages abound nationwide for both physicians 
and nurses, and those shortages are projected to increase.
    Private hospitals and medical schools use innovative and 
progressive solutions to address recruitment and retention 
challenges. We must be creative in our approach to recruiting 
and retaining. We at the VA want to be the leaders, or be very 
fast followers, of the best human capital practices in the 
Federal Government and the health care industry.
    We look forward to working with the Committee on 
opportunities to enhance VA's ability to attract top talent. I 
am prepared to respond to any questions you may have. Thank 
you.
    Senator Lankford. Thank you. I want to defer to Senator 
Sinema for first questions.
    Senator Sinema. Thank you so much, Mr. Chairman. Thank you 
again for being here.
    I want to start with a global question and then ask a 
couple of more specific questions for each of our agency 
witnesses.
    Human capital management has been listed on the GAO high-
risk list since 2001, and over that time GAO has made many good 
recommendations on how agencies can improve. But a lot of the 
feedback I have received on this issue over the years is that 
hiring and retention challenges are often cultural. In order to 
fix the problem, leadership at the agency must want to fix it 
and make improvements a priority.
    For our DHS and VA witnesses today, Ms. Bailey and Mr. 
Sitterly, what steps can you point to that show your agency is 
making better human capital management improvements a priority?
    Mr. Sitterly. I will take that first, Senator. Thank you 
for the question. I appreciate it.
    We are doing lots of things in using the authorities that 
Congress has given us. Recruiting is a challenge because of the 
shortages. We have partnered with HBCUs to increase the number 
of interns that we bring in. We have robust programs across all 
of the intern programs.
    We have 122,000 students and residents that come through 
our VA medical centers every year. We increased the behavioral 
health specialists that we have in the VA by a net 1,000 this 
past year, by targeting specifically the interns, the students, 
and the residents that we have in our facilities.
    We also have worked to increase the talent of our HR 
professionals. I will tell you, ma'am, with all due candor, 
that you have been more than gracious with the authorities that 
you have given the Federal Government for hiring, but they are 
really, really difficult. When I worked at the Department of 
Defense I thought Title 5, Title 10, Title 38 were very 
difficult to manage with part-time, full-time, Reserve, and 
Guard personnel. It is even more complicated in the VA between 
Title 5, Title 38, hybrid Title 38. I recently went to my own 
HR training seminar to learn how to do pay-setting for nurses. 
It took me an entire day, and I have been doing HR for over 40 
years.
    We are using a lot of the authorities to include the 
education debt reduction program. We have scholarship programs. 
One thing that I would ask you to help us with, with the 
national shortage, ma'am, is to be able to grow our own VA 
doctors, using the Department of Defense's Uniformed Services 
University (USU). We, in the Air Force, don't go to the 
airlines to hire fighter pilots. We train fighter pilots.
    We should not, in the VA, go to private industry to hire 
doctors. We should create our own doctors. And so we are using 
the authorities that you have given us to bring those doctors 
on, and then to retain the doctors, and then we would like to 
attempt to grow our own as well.
    Ms. Bailey. Thank you. For starters, within DHS, I think 
one of the main things that we have done, from the beginning, 
is really just stopped admiring the problem and actually 
started talking about solutions. We see this as a team sport, 
the entire leadership team along with the HR specialists, the 
personnel security specialists, our medical professionals, as 
well as our hiring managers. We come together as one team to 
actually approach what the issues are.
    A few years ago we actually embarked on expediting the 
temporary job offer process because you hear all the time that 
we cannot make job offers on the spot. As a department, we have 
made close to 1,800 tentative job offers on the spot. By 
bringing the power of all of DHS together and making sure that 
we can vet people, interview people, and do everything at one 
time, we have been able to make quite a few tenative job offers 
that is one way.
    The second thing that we have done is we have taken a look 
at all the data that we have. We have analyzed all that data. 
We know exactly where we have our recruiting events, exactly 
how much it costs to go to those recruiting events, whether or 
not there is a return on investment for the recruiting events. 
Then we also do things like shared certificates. Meaning if we 
put out a job announcement for one location or one component, 
we are actually able to share those certificates across all the 
different components so that we can make use of that and not 
basically throw away qualified candidates.
    This is just a smattering of examples of some of the things 
that we have done. In addition, we have looked at the entire 
hiring process. We break it down by the different components. 
We have rearranged the hiring process. We have cut out certain 
steps. We have looked at the way we do our polygraphs. We have 
looked at the way we do our background investigations. As a 
result of that, we have seen, as I said earlier, a 34 percent 
reduction in our time to hire.
    It is critically important that this is viewed as a team 
sport and it is not just an HR issue or an HR problem. As a 
result we are starting to make significant progress. Last year, 
as an example, was the first time in 6 years that we have ended 
the year with more Border Patrol agents than we have lost. That 
is all attributed to having everyone at the time exploring the 
issues and just tackling them one at a time.
    Senator Sinema. Thank you. My next question is for Mr. 
Sitterly. My staff and I have been in continual contact with 
our Arizona VA medical centers, and hiring challenges continue 
to be a focus of our conversations.
    One of the specific challenges that the Northern Arizona VA 
Medical Center runs into is an inability to hire housekeeping 
staff. Housekeeping staff at a VA medical center have critical 
functions, such as cleaning and sanitizing operating rooms and 
patient rooms, but they are categorized and paid at the same 
level that housekeeping staff maintaining an office building 
are. And our veteran service organization partners brought to 
my attention that VA downgraded the General Schedule (GS) level 
for these and 18 other Title 5 positions a few years ago.
    So my question is twofold. How do we fix the clear 
discrepancy with operational staff such as housekeepers, and 
why did the VA choose to downgrade these positions?
    Mr. Sitterly. Thank you for that question, Senator. I, too, 
as my first 6 months at the VA, have traveled around and hear 
that question quite often. I am happy to report, in part, 
thanks to Dr. Jones' GAO report that she did recently, we have 
been addressing that with OPM and they were willing to look at 
our housekeepers and to put them into a different authority to 
work with us to look at different pay scales and such. So we 
are making progress in that front.
    I cannot answer why the classification was changed and they 
were downgraded, but I will tell you that it is something very 
important to us--maintaining the satisfaction, the safety, and 
the security of our hospitals, and we will continue to address 
that.
    Senator Sinema. I want to continue talking about the VA. In 
Arizona, the VA health system covers a lot of rural areas. This 
represents an additional challenge to recruiting and retaining 
employees. My office has an outstanding request to VA's Central 
Office to learn more about locum tenens. So how is VA using 
that, and to what degree is or can it help to fill gaps in 
staffing, and is this something that we can talk about now?
    Mr. Sitterly. I am not familiar with it, your outstanding 
request, Senator, but I would be happy to come over to your 
office and have that conversation. We have a lot of different 
ways that we can address the shortages, a lot of different ways 
we are addressing rural medicine as well--telehealth, community 
care, and several other initiatives. I am very happy to come 
over and speak with you on that.
    As a result of one of our recent all-employee surveys we 
discovered that employee satisfaction is highest when we have 
students and residents in our facilities. We do have a few 
facilities where we did not have them, so we will look at 
placing them throughout all of our facilities in an attempt to 
continue to retain those people.
    Our turnover rates within the Veterans Affairs department 
is less than commercial industry, according to the Bureau of 
Labor (BOL). It is less than the Federal Government. Overall, 
once we get the employees we tend to retain those employees.
    However, we do have a very high turnover rate for our food 
service workers and for our housekeepers, because we bring a 
lot of them in at a lower pay rate, and so we will continue to 
address both of those questions, Senator.
    Senator Sinema. I would like to follow up on this 
specifically. Northern Arizona, which is Prescott, is a rural 
community, but the cost of living is actually higher there than 
it is in some of our urban areas because it is so difficult to 
get there. And we have had a very difficult time being able to 
hire and retain highly qualified individuals in remote areas 
such as Northern Arizona.
    Mr. Sitterly. Senator, I would love to transition all of 
our Veterans Health Administration (VHA) employees to Title 38, 
which gives us more authorities to set market pay, as you know. 
We have some of our clinicians who provide direct care in a 
hybrid Title 38. We have roughly a third of our employees in 
Title 5, a third in Title 38, and a third in hybrid 38. So 
every time we have a market pay issue in a particular region we 
have to go to OPM to reset those pay, special salary rates, 
etc.
    Under Title 38, Secretary Wilkie has the authority to do 
that based on the actual market rate, and we have more 
flexibility as things change. In a perfect world, the entire 
VHA would be in Title 38--our clinicians and care providers, if 
you will.
    Senator Sinema. We will follow up on this. This is 
important for us.
    Mr. Sitterly. Thank you, ma'am.
    Senator Sinema. We are also finding that hiring and keeping 
our staffing in rural areas is difficult as it relates to DHS. 
As you know, many of our DHS employees live in very remote and 
rural areas in Arizona. So what programs and tools have you 
identified through DHS that can help address some of these 
hiring and retention challenges in very remote parts of our 
State?
    Ms. Bailey. Yes, Senator. We did some research with regard 
to the rural areas. I think we have close to 9,000 employees 
that are actually located within Arizona and our attrition rate 
within Arizona runs roughly around 6 to 7 percent, which is on 
par with the rest of DHS.
    Some of the things that we look at, from a very tactical 
level, is we actually go in and look to see, because these 
areas are so remote we have spouses that are, in many cases, 
unable to get employed, it takes 2 hours to get to a dentist 
office, etc., so one of the things that we deployed is special 
salary rates.
    We have also deployed retention incentives for individuals 
working in many of those border locations. The third thing we 
have done is created a rotations program, so that we can 
actually give the folks the opportunity to rotate out of those 
particular areas and go into a more urban area in which it is 
not just good for them but it is good for their families as 
well. We have found, by deploying those three things, that it 
is actually helping us keep our attrition down and keep our 
vacancies filled.
    In our rural States, we actually have a 98 percent fill 
rate, if you exclude D.C. And so that is on par with where we 
are with the rest of the Department as well. We are much like 
the VA. Once we get folks into DHS they have a tendency not to 
leave DHS.
    Senator Sinema. Thank you. I could ask questions all day 
but I understand our time is closing in.
    My next question is also for you, Ms. Bailey. Much of the 
DHS workforce in Arizona is going through a challenging time. 
The crisis at our Southern Border has led to long hours and 
difficult conditions, and many of the agents and officers I 
have spoken with have told me about their concern about the 
impact that this period is having on them and their fellow 
employees. Some of these men and women are working up to 16-
hour shifts a day, multiple days in a row. It is not just in 
Arizona. This is happening everywhere on the border.
    What is it that DHS is doing right now to help the 
workforce get through this challenging surge period, and how 
can we work together to retain this workforce over time?
    Ms. Bailey. That is actually quite a concern for us as 
well. In fact, just a few weeks ago, I was down on the border 
myself. I went to Douglas and Tucson, to both stations, and I 
had the opportunity to meet with our Border Patrol agents as 
well as some of our DHS volunteers that were down there.
    You are absolutely right. The emotional toll this has taken 
on our workforce, you can see it. You can see it in everyone's 
face.
    Some of the things that we have done is we have put a 
concerted effort into employee and family readiness. We are 
investing in mental health strategies. We are investing in 
their personal relationships by delivering training for them, 
not just for the employees but also for their spouses as well. 
We are providing financial literacy programs as well. We are 
also doing what is called mindfulness or resiliency training.
    We are trying to deploy a multitude of things, including 
dependent care, really looking into that as well, because as 
you know, and I say this all the time, our folks cannot say, 
``Hey, it's 5,'' to the drug cartel. ``I have to go pick up my 
child.'' They do not get the opportunity to do that. As a 
result, we are trying to figure out ways that we can actually 
help them be able to have dependent care where they actually 
need it, or on-demand dependent care.
    It is a concerted effort on our behalf. It is not just a 
headquarters issue. It is actually across all the components 
that are involved in this, in making sure that we address their 
individual needs. We are using peer support, chaplaincy 
programs, anything that we can actually do to help provide them 
the support that they need, both on the job and in their own 
personal lives. Because both of them impact the other quite 
significantly, and we recognize that.
    And so I think that we are on the right path.
    Senator Sinema. Thank you so much. Thank you so much for 
holding this hearing, Mr. Chairman. I appreciate it.
    Senator Lankford. Thank you. Senator Rosen.

               OPENING STATEMENT OF SENATOR ROSEN

    Senator Rosen. Thank you. I appreciate you holding this 
hearing. I appreciate all of your work in streamlining, trying 
to attempt to streamline the behemoth organizations you have, 
in the hiring process. It is always a work in progress.
    I would like to speak a little bit about cybersecurity 
workforce. The GAO has released a report in March of this year 
finding that accurately categorizing information technology 
(IT), cybersecurity, and cyber-related functions is crucial for 
Federal agents to be able to identify critical staffing needs. 
The GAO found that most agencies have likely mischaracterized 
IT and cyber positions, which means they do not have reliable 
information for workforce planning.
    Ms. Jones, maybe can you explain a little bit why and what 
the mischaracterization of the IT positions or cybersecurity 
positions are and why it might be so common across Federal 
agencies?
    Ms. Jones. Thank you, Senator. Yes, I did take a look at 
that. So there were a number of reasons why a number of the 
agencies miscategorized these positions. So our work found that 
actually 10 agencies simply made a mistake in terms of 
characterizing the work roles of people. This is particularly 
in the 2210 IT specialist occupational category.
    Thirteen agencies had not completed validating or defining 
that 2210 position. That is why they miscategorized some of the 
positions. Seven agencies applied their own standards to 
defining these positions. So some of them decided that they 
would not code a position as cybersecurity related if a person 
in that position did no work on cybersecurity for a certain 
percentage of the time. And 12 agencies Stated that OPM 
guidance--they did not feel that OPM guidance was clear on 
whether the 2210 IT management positions should be assigned a 
work role code as compared to the IT specialist position. So 
those are some of the reasons.
    Senator Rosen. You have made recommendations to OPM. Can 
you tell us how that is going, and responding to what your 
recommendations are and what you feel that you might need from 
us, if anything, in order to get these positions characterized 
properly and filled?
    Ms. Jones. Right. Since the report was only issued in 
March, I would not expect that OPM would have made a lot of 
progress since then. But this is an issue with which OPM is 
already familiar, I think, and has been working with agencies.
    I think that OPM would just need to make sure that their 
guidance to the agencies is very clear, and then to be able--if 
there are any other concerns, for example, about positions 
which are both IT-related and cybersecurity related, where 
there seemed to have been some confusion about the work roles, 
that OPM work very carefully with the agencies. Agencies can 
also talk to each other about this. There is a Chief Human 
Capital Officers Council, where when there are problems that 
cross agencies they can develop work groups or task forces to 
help each other.
    Senator Rosen. Thank you. I also want to talk to you a 
little bit about a GAO report that was released today on human 
capital. GAO writes that agencies should leverage existing 
hiring and pay flexibilities in order to fill critical 
vacancies.
    Ms. Jones. Yes.
    Senator Rosen. With so many open positions in important 
areas, like you said, cybersecurity, this makes sense. However, 
we need to balance the need for streamlined hiring practices 
with the importance of maintaining a diverse and talented 
career civil service, where taxpayer funds are spent to hire 
the best qualified, not necessarily the best connected.
    So the concern about giving more latitude in hiring is that 
it can, to a closed system, it really can be very tough when 
the system is closed, where crucial government positions can be 
filled based on who knows who rather than who is the best and 
the brightest, and in that case, diversity suffers.
    I have introduced some bipartisan legislation to address 
some of these things across Federal agencies. We have a Junior 
ROTC Cyber Training Act that is going to prepare high school 
kids, a Cyber Ready Workforce Act, a Building Blocks of STEM 
Act. I am hoping that all of these will come to the floor and 
be passed and this might help.
    In addition to passing that legislation, what can OPM do to 
ensure there is an open, accessible hiring process with access 
to a pipeline of diverse talent, even when agencies use 
flexible hiring authorities to fill critical vacancies?
    Ms. Jones. Well, Senator, we have not found that it was 
necessary to make a tradeoff between having a diverse workforce 
and following all of the statutory obligations for competitive 
hiring and for ensuring that people who are hired have the 
requisite qualifications.
    So a number of things that agencies can do, and of which 
OPM is already aware, they can reach out to a wide range of 
educational institutions that are training students in the 
required skills. So that means, universities, technical 
colleges, all kinds of post-high school institutions. They can 
reach out to career and professional organizations representing 
diverse ethnicities, races, veteran status, disabilities, 
gender. They can identify a wide range of existing hiring 
authorities that can both expedite hiring and make hiring more 
flexible, yet at the same time continuing to follow their 
statutory obligations under a competitive hiring system and 
also choosing people with the right qualifications.
    Once agencies have found these people and hired them, these 
agencies need to make sure they undertake the appropriate 
activities to make them want to stay in the agencies.
    Senator Rosen. Thank you. I see my time is up. I will 
yield. Thank you.
    Senator Sinema [Presiding.] Thank you, Senator Rosen. 
Senator Carper?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Yvonne Jones, how are you?
    Ms. Jones. I am fine, sir.
    Senator Carper. We have an Yvonne Jones in Delaware. She is 
wonderful. When I saw your name it brought a smile to my face. 
We are happy to know there are two Yvonne Joneses. But I think 
there is only one Angela Bailey.
    I am going back in time. I am trying to recall. Did you 
start your current job in January 2016?
    Ms. Bailey. I did, sir.
    Senator Carper. OK.
    Ms. Bailey. Yes.
    Senator Carper. Tom Coburn, who was Senator Lankford's 
predecessor, and I worked for a number of years, as you may 
recall, in this Committee with our colleagues to try to respond 
to concerns that were shared with us by Jeh Johnson, who had 
been the Secretary of the Department, and Ali Mayorkas, who was 
the Deputy Secretary. And one of the problems they shared with 
us is they were having a hard time hiring and retaining cyber 
warriors.
    And it sort of reminded me of when I was privileged to 
serve as Governor of Delaware. We used to have folks who were 
IT people, and they were in the department that we now call the 
Department of Technology. But we hired people, trained them, 
and these were pretty junior, and just when they started to get 
pretty good they would be hired away by the private sector and 
we would lose them because they would pay more money. So what 
we tried to do was to pay them more money and change the way we 
took them outside the merit system and created the ability to 
provide the kind of resources for the department and keep those 
folks, rather than just train them and then see them leave for 
bigger and better things.
    I just want to ask if you can give us some feeling of the 
changes that Dr. Coburn and I worked on, in terms of, 
expediting hiring authority for folks who work in--I guess it 
is Cybersecurity Information Sharing Act (CISA) now, to ask if 
DHS needs any additional authorities to further improve cyber 
hiring. How are you doing? Are you using the provisions that 
you inherited, literally, as somebody new on the job, and what 
more do you need?
    Ms. Bailey. Thank you, Senator, and I actually want to 
really thank you for Title 6, which is what you passed to give 
to the Department. We have made tremendous progress with regard 
to Title 6. One of the things that we are doing right now is we 
are actually working with all of our subject matter experts to 
put together exactly what it is that they need from both 
technical and leadership skills. We are building state-of-the-
art assessments right now, as we speak.
    We have created a brand new portal in which these folks 
will actually be able to apply for these jobs which is unlike 
anything we have seen before. What we have taken what you have 
given us and treated it almost like our ability to do civil 
service reform. So we have looked at everything and completely 
redesigned the entire system.
    We will have a brand new way of recruiting folks, which 
will include actually looking at people and what their skills 
are and what they can bring to the table, instead of announcing 
just a GS, 2210 that nobody knows what that really is. Instead 
we will go out and say DHS is looking for digital forensics. 
Send in your resumes. We will take a look at that. And then we 
will have the ability to match that up against projects or work 
that needs to be done, and then we will place people where the 
work actually is, instead of trying to make them fit into our 
little neat GS system.
    We have looked at the pay. We are going to use market-
sensitive pay across the board. And so with that we have been 
investing in the different economic surveys so that we will be 
very clear as to what we are going to pay our folks, and it 
will not just be simply based on the former GS system that we 
have today.
    We have looked at all the different ways of compensation. 
We have agreed that we are going to put money into--up to 
probably $40,000--training for these individuals. We are going 
to have the ability to go to Black Hat and some of the 
different conferences and be able to recruit directly and make 
job offers directly to those folks, out of those different 
technical conferences and things like that.
    So we have really dove into this and we are taking full 
advantage of what you gave us. By the spring of 2020, all of 
our regulations should be through the clearance system and we 
should have our first hires within the spring or the summer of 
2020.
    So we are very excited about this. We have full support 
from the leadership, from the top on down. I just had the 
opportunity to brief our acting deputy secretary the other day, 
and he is fully supportive of this. OMB is fully supportive of 
this as well.
    I think what you will find is that you gave us something 
that is just spectacular and we did not waste it. And that is 
what I am really most proud of: we did not just simply dink 
around the edges and add another step or something. We actually 
blew up everything that had to do with the current way of 
recruiting, hiring, and paying folks, and we are just going to 
start from scratch and build a 21st Century hiring system.
    Senator Carper. Well, that is great. It reminds me of the 
parable in the New Testament where the landlord or the boss had 
like three servants. And he gave one of them 10 talents, and 
said, ``Go out and make something out of this,'' or 5 talents. 
He gave another--maybe it was 5 talents--and then he gave 
another one of them 2 talents, and another one 1 talent. And 
the one that got 5 talents went out and created 5 more talents. 
The one that got 2 talents went out and created 2 more. The one 
that got 1 talent did nothing with it. And it sound like you 
have taken the 5 talents and the 2 talents and really done 
something with it. If Tom Coburn were here I think he would 
come out and we would both give you a high five. Thank you.
    Ms. Bailey. We would be more than glad to come up and brief 
you personally on it----
    Senator Carper. Would you be willing to travel to Oklahoma 
where Tom Coburn is now?
    Ms. Bailey. Sure.
    Senator Carper. I am kidding. I will let him know what you 
are doing.
    Ms. Bailey. OK.
    Senator Carper. But good work.
    A real quick question, if I could, for Mr. Sitterly. GAO 
and others have identified critical skills, gaps, as you know, 
in areas such as cybersecurity, which have been talking about, 
auditing, human resources, and procurement, to name just a few. 
I would just ask, how are you working to ensure that individual 
hiring decisions are in line with long-term needs of your 
agency, including tackling those areas identified as critical 
skills gaps? Please. And just briefly, because my time is about 
to expire.
    Mr. Sitterly. Thank you for the question, Senator, and 
thank you for the authorities that you have given us. We are 
using what we call the three R's--recruiting incentives, 
retention incentives, relocation incentives--where we have 
rural areas or hard-to-hire areas. We are using those 
authorities.
    We have scholarships. We are offering education debt 
forgiveness for both recruiting and retention. Bringing the 
people to us is not as hard as keeping the people, especially 
in HR, once we have them. And it is not all about the pay and 
compensation, quite frankly. The bill that the House, in the 
Armed Services Committee, just brought forward, with the paid 
parental leave, I think is something that we need to look at. 
The Department of Defense has the best paid parental leave 
policy in the Federal Government, for those in uniform. Every 
other Federal agency has the worst paid parental leave program.
    I would love for the VA to be a pilot program, because I 
think 60 percent of the VA is women. We have a younger 
workforce than most of the rest of the Federal Government, and 
I think we could both recruit and retain workers if we had a 
paid parental leave program.
    Senator Carper. Thank you all for being here today and 
thank you for your testimony. Thanks, Madam Chairman.
    Senator Sinema. Senator Carper, we have a few moments. If 
you have more questions you are welcome to ask a few more.
    Senator Carper. I am supposed to be in three places right 
now. You probably are too.
    Senator Sinema. Yes, that is true.
    Senator Carper. As a veteran myself, retired Navy captain, 
thank you very much for all you guys and gals are doing.
    Mr. Sitterly. Thank you, sir. Thank you for your service.
    Senator Sinema. Thank you, Senator.
    I have another question for Ms. Bailey. As you have noted, 
hiring is a complex issue and so is retention. In Arizona, many 
of our Custom and Border Protection (CBP) employees commute 
long distances to work in order to live in a larger community 
and have access to schools or job opportunities for spouses, 
you mentioned earlier.
    These long commutes are not unique to Arizona--I know that 
they occur in Texas, for sure--and they do cost our border 
workforce time with family and money for travel. What can we do 
to help address this specific challenge of the long commute 
that many families are doing every day?
    Ms. Bailey. We actually did talk about that with the Border 
Patrol. It is something that is really pretty disconcerting to 
us, because, to your point, it is like some of them are on the 
road up to 2 hours, and then whenever they get there, they have 
to change into their uniforms, and it just makes for an 
incredibly long day. It is a dangerous day because of how many 
working hours that they are putting in, and then the commute at 
the end of the day.
    Some of the things that we need to just really kind of 
think these through, but are there ways for us to create 
housing, if you will, in those areas, in those border areas. 
And maybe we can change the shifts in such a way that folks 
would actually have the opportunity to work kind of like a fire 
department, where it is four days on, four off shifts.
    So those are just some of the innovative things that the 
Border Patrol is taking into consideration. We will need to 
work with our unions as well, and with Border Patrol agents, 
with the leadership, to see if it is even feasible. But, I just 
want you to know that it is always in the back of our minds to 
just think of ways that we can address this very complex issue.
    Senator Sinema. Thank you. My next question is for Mr. 
Sitterly. Under the VA Choice and Quality Employment Act of 
2017, the VA is required to conduct exit interviews of outgoing 
employees and provide that data to Congress. But in reviewing 
these reports I was interested to see that the number one 
reason employees left was to move to a new job opportunity. 
Retirement was second and management issues was third.
    So pay was one of the least common reasons, but it often 
seems we talk about pay first when it comes to retaining 
employees at the VA. How are you using this data and other data 
from additional sources to inform your program and policies for 
attracting and retaining employees?
    Mr. Sitterly. Great question, Senator. Thank you for that. 
We have our All Employee Survey, which we just completed. We 
not only have the exit surveys, we have entrance surveys. I 
just swore in a new class of 31 people this week. More than 
half of them were returning VA employees.
    When you look at the outside and you compare pay, benefits, 
all of the compensation, it is not always about the opportunity 
to get paid more. It is often about the opportunity to advance 
in grade, advance in rank. And so part of our challenge, I 
think, is onboarding people as they come back, to bring them 
back into the organizations that they left. And also to make 
sure that we have a good workforce plan to allow them to grow 
into the jobs that they have.
    Often times we find that the exit surveys are the most 
immediate way for people to share feedback when they are 
walking out the door. It is not always pay and compensation but 
it is advancement. And so as we look at cybersecurity, for an 
example, when we look at the classification system that we have 
within the Federal Government, it is 70 years old. It is a 
proxy for pay and allowances.
    Under Title 38, we hire the person, and we call it rank and 
person. We hire them according to the specialization that they 
have--the education, the experience and the talent that they 
have. With Title 5, we hire to the position; whatever is in the 
org char.--it could be a GS-12, I would tell you it is very 
difficult to recruit and retain talent in things like 
cybersecurity or some of those other shortage fields when you 
are using that pay structure that we have.
    So, yes, the exit surveys tell us that people leave for 
upward mobile promotions, and/or jobs. Sometimes it is tied to 
pay and compensation, and sometimes it is not.
    Senator Lankford [Presiding.] So the ongoing vote is 
happening, and so I sat down for the first vote and ran back, 
and then we will pepper you with questions and then I will run 
back for the second vote and we will see if we can get it in, 
and other Members may come in and out.
    Dr. Jones, let me start with your comment. Since 2001, this 
has been on GAO's high-risk list. Give me a quick snapshot of 
what you think is going better and what has made no progress. 
And if anything is worse, you can say that. I would hope that 
nothing is worse. But what is better since 2001?
    Ms. Jones. I think that since 2001, I think that many 
agencies and OPM have become much more aware of the need to 
have strong strategic workforce planning, and to be able to 
identify the kinds of critical skills that they need to achieve 
their agencies' missions.
    I would say that agencies sometimes are more aware of a 
need to look at results-oriented management, needing to begin 
to devise systems to collect information. How shall I say it? A 
range in agencies' ability to do that, also including OPM.
    I think agency leaders have perhaps become more aware of 
their role in both setting the tone and devising agency 
policies to improve the management of their workforces, 
including identifying what kinds of skills they need now and in 
the future.
    I would just say that there is a range in the ability of 
agencies, not only to do this but to devise systems to measure 
what they are doing, to analyze data and see how effective the 
measures that they take are, and then to be able to do it with 
continuity over time.
    Senator Lankford. So you think trendline is correct? I am 
trying to read into what you are saying. There are obviously 29 
areas unaddressed currently by OPM. Trendline is improving or 
trendline is not getting better? Addressing some issues but 
obviously new issues come.
    Ms. Jones. I would say that I think the trendline is 
getting better, but that we at GAO would like to see some of 
the changes that we have recommended take place with greater 
speed. If we were able to do that, while at the same time 
ensuring that the actions that agencies are taking are well 
justified and that the agencies are actually understanding any 
differences, positive differences or any mistakes that they are 
making.
    Senator Lankford. OK. So quick story time with James. My 
very first job was working at Baskin-Robbins, 31 flavors, if 
you remember that theme that was the deal all the time. I am a 
teenager wearing a pink and brown polka-dotted outfit. It was 
great character building for a teenage boy. But I distinctly 
remember when people walked in with 31 flavors it took forever 
to pick one, and by default, the majority of the people went to 
vanilla, the most popular flavor, with 31 options.
    We have how many hiring authorities now in the Federal 
Government?
    Ms. Bailey. 102.
    Senator Lankford. 102? I have heard as high as 120, 
depending on the agency if you have additional specialties.
    But by default, folks go back to the two or three they like 
using the most. You had mentioned before, Dr. Jones, about 
people need to be able to use all of the authorities that are 
out there, and they are not using all of the authorities.
    So the challenge that we have is, there are over 100 
different hiring authorities out there, but almost every agency 
that comes to us says, ``We want direct hiring authority. That 
is what we really want.''
    So what I need to hear from the two of you, especially, 
that do this all the time, and for you, Ms. Bailey, especially, 
coming from OPM and in this position in DHS now, is what do we 
do to be able to fix the hiring piece, as practical as you can 
be, especially with all the various hiring authorities that do 
not work because people just default to the two or three that 
they know? How do we solve this for your HR folks?
    Ms. Bailey. For starters, one of the first things I would 
say is please do not give us any more hiring authorities. We 
just do not need any more.
    Senator Lankford. You do not need a double chocolate 
raspberry variation?
    Ms. Bailey. I do not. You can even put sea salt on top of 
it and I still do not need it, OK?
    So what we really need to do is boil this all down, even 
our veterans' hiring authorities. A lot of time folks will say, 
that veterans have preference and we can hire veterans this 
way. But, even for them, there are three or four different ways 
to hire a veteran, and not all veterans are actually treated 
the same way, even within the hiring process.
    So one of the things from a DHS perspective that we have 
done, and we have actually introduced the legislation to 
Congress, is to have our DHS Enhanced Hiring Act consolidate 
all the hiring authorities for veterans into just one non-
competitive hiring authority where we could walk into any 
military transition center, any university, any place that we 
would find a veteran, and we would have the opportunity to make 
them a job offer. That would be extremely helpful for us. It 
would be helpful for the veterans as well, because they would 
not have to worry about what their percentage was, or what 
their rating was, or if they had a campaign badge or not. It 
would just be beneficial for everyone.
    The second thing that we have introduced within our 
legislation is for our mission-critical positions, as long as 
our agency is maintaining 20 percent or higher veterans on 
board--and right now we are close to 30 percent--and maintain 
that 30 percent--that we should be able to go out to any source 
to recruit military spouses, students, people with 
disabilities, technical skills such as mechanics and things 
like that.
    We need the ability to actually hire people. There is no 
corporation in the world that has 102 different ways to hire 
somebody, so it is no wonder that we obviously default to the 
few that are on the books. It is not because there are 
favorites. It is just because it is probably the go-to thing 
for us, and it just makes it easier, because it is all about 
getting people on board.
    So my ask is that we just stop all of this nonsense and 
just boil it down to a veteran's hiring authority, and a hiring 
authority that I can use to hire everyone else. And, honestly, 
it would probably take 6 to 8 weeks, immediately, off the 
beginning part of the hiring process, if we could even just do 
that.
    Senator Lankford. So let me give you the challenge that we 
have around this desk, and when I walk over to the other 
building to be able to vote. Some Member of Congress saw some 
need for some group to get some attention and they passed a 
bill to give that hiring authority. And it may be named after 
them or it may be something that was a proud bill they passed, 
to be able to go back to them and to say, ``We are not going to 
do that anymore. We are going to clean this up because it is 
overly complicated, has its own political implications on 
that.'' That is my problem and I have to deal with that.
    Ms. Bailey. Right.
    Senator Lankford. Your challenge is that everyone is also 
going to look at you and going to say, ``Does everyone have a 
competitive shot? Are certain groups going to get more of an 
opportunity to be able to get in?'' You talk about recruiting 
on a college campus. Mr. Sitterly, you talked about going to 
where active duty military are and trying to be able to recruit 
them before they leave, even, to consider VA. That gives 
college students a detriment to those members of the military 
that are there, because they are not there on that base. It may 
be on a college campus there are not as many veterans that are 
on that college campus, or maybe a percentage but not as many.
    Every place you go, some group is going to say, ``Yes, but, 
did my group get the opportunity to be able to engage with 
this?'' What is a way that we can put a system in place to be 
able to say to DHS or VA or any entity, to say, we expect you 
to have a workplace as diverse as your environment that you 
work in, and we expect you to be able to maintain that and be 
able to reach out to all aspects of the community without 
having to be heavy-handed in this process? How do we balance 
that?
    Ms. Bailey. I think one of the ways would be for us to 
actually measure the results of this. So today DHS, for 
example, is 47 percent diverse. We have the highest level of 
diversity within any Federal agency. We are 10 percentage 
points above the entire Federal Government when it comes to 
diversity.
    Where we fall behind is with women, especially within our 
law enforcement areas. Today, I have to go to OPM and request a 
special hiring authority to hire just women. If we were given 
this authority, I could then create a women-only hiring event 
and be able to drive up the numbers that I have within our law 
enforcement community, from a gender perspective.
    I think the key to all of this is to measure it and to 
report it out in a very transparent way. Every agency should be 
able to report out where they are with regard to all of its 
diversity numbers. I think we keep track of that. We have 
plenty of oversight already that keeps track of these kinds of 
things. But report it out in a very transparent manner. If we 
are not meeting what we think is a reasonable expectation for 
an agency when it comes to diversity goals, then we would go 
back in and revisit it at that point in time.
    For me, the problem is that we have all these hiring 
authorities, we have this incredibly complicated system, and we 
are not that diverse anyhow. So we ought to try something new 
and just see if it is going to work, because I would almost 
bank on the fact that we would probably drive a higher 
diversity if we had the ability to target the areas that we 
wanted to, to be able to drive the kinds of numbers that we 
really want, in order to be able to accomplish our mission.
    Senator Lankford. OK. Mr. Sitterly, where is she right? 
Where is she wrong? What would you add to it?
    Mr. Sitterly. Yes. Well, in all fairness, Mr. Chairman, we 
HR people hang out at the same watering holes in Washington, so 
it is hard to disagree with her. I absolutely agree. Maybe you 
start by putting a moratorium on any additional hiring 
authorities, and you keep the ones we have. OPM, quite frankly, 
is doing a good job today of collecting data, and we have not 
had the ability to make evidence-based decisions on data in a 
long time.
    Once we start looking at that data and figure out where the 
authorities are working best, then you can bring it back to 
your colleagues and show them where they can be the sponsor of 
the consolidated personnel pay and authority, if that is what 
we want to do. They could put their name on it.
    But we simply cannot continue to have the complexities in 
the pay and personnel system that we have. And every time we 
add a new one, I feel like an HR specialist needs to have 
graduated from law school in order to implement it. Connecting 
Title 5 changes with Title 38 changes, with hybrid Title 38 
changes, there is always some disconnect.
    We have over 600 podiatrists in the VA today who are not 
getting paid properly, because of just the legal complexities 
of having changed it from a hybrid Title 38 to a Title 38. We 
are fixing it, but we have lost the trust and confidence from 
some very critical people.
    I will give you a quick anecdotal story, if I may, Mr. 
Chairman. In my previous job I was responsible for the day-to-
day operations of our front office of 10 people. We had 10 
different authorities, 10 different systems that we hired the 
10 people in my front office, everything from a political 
appointee, Senate-confirmed assistant secretary to a career 
Senior Executive Service (SES), to an acquisition demo, to an 
intel, to an active duty military, to a Guard, and a Reserve. 
There were 10 different systems.
    And it is not just the hiring authority that is complex. 
They all have a different assignment policy. They all have a 
different bonus structure. They all have a different 
performance plan. They all have a different retirement plan.
    My boss used to beat me up because I spent all the time in 
the HR business and little of the time doing the policy for a 
680,000-person force. And that is the complexity that we face 
today.
    We do, to your point, Mr. Chairman, use those things that 
we are most familiar with, and we are not using all of the 
authorities that we have--in many cases. And when we do, we are 
making mistakes and we are not connecting pay. I would suggest, 
sir, if I may, that we can work with you and OPM, Dr. Jones, to 
maybe put a moratorium on anything additional, and then go back 
and see what it is that we can consolidate.
    Senator Lankford. So a simple ``make it stop''----
    Mr. Sitterly. Make it stop, sir, please.
    Senator Lankford [continuing]. And then try to figure out 
how to be able to turn that around.
    You mentioned, in your testimony, you used the term ``we 
must be creative in our hiring.'' Tell me what you mean by 
that.
    Mr. Sitterly. The classification system that we use for 
general GS employees is 70 years old, like I mentioned. We 
cannot continue competing using old pay scales. It becomes a 
proxy for pay and compensation. To Senator Rosen's point, first 
we have to determine what is a cyber skill that we need, and 
separate those from coding and software specialties, and 
infrastructure specialties; that is difficult enough. And then 
as we recruit for these jobs we get the people that come in, 
but when they look at our offerings for pay and compensation, 
particularly at the entry level, we cannot compete.
    So throw away the GS system as a proxy for pay and 
compensation. Go to a Title 38. Put everybody under a Title 38-
like structure, where we are paying you for the skill that you 
bring, we are paying you for the experience that you bring, and 
putting you into the right job, versus where you are in the 
hierarchy.
    Senator Lankford. Right. Especially regionally.
    Obviously there are quite a few Federal offices that are in 
lower cost of living areas, and some that are in extremely high 
cost of living areas. You mentioned, as well, some of your 
Border Patrol and some of the difficulties there. If Senator 
Heitkamp was sitting here she would talk about Northern Border 
and the difficulty of pay for the Northern Border as well, and 
the isolation of that.
    So how does that fit into what you are saying?
    Mr. Sitterly. Sir, in Title 38, the beauty is there are 
three components of the pay. It is base pay, it is market pay 
of that area that you are in, and then it is performance pay. 
You will see that for a lot of people, their pay will not 
change, because they are getting paid according to the region 
that they are in. Some places it will increase, but I believe 
that if you reduce the turnover and the retraining of their 
skills that there is a business case to be made to do it with 
that particular formula.
    Senator Lankford. Ms. Bailey, there has been a challenge 
for Federal workers in any agency, leaving, going to the 
private sector, working in the private sector 10 years, gaining 
experience, and then coming back into Federal service. How do 
we fix that?
    Ms. Bailey. First of all, what I would say is that it is 
kind of a revolving door for some of these folks, and in some 
specialties, quite frankly, we are OK with that. In the cyber 
world, I do not really expect anybody to come in and be a 30-
year employee.
    Senator Lankford. Right.
    Ms. Bailey. I really do expect them to come in and out.
    So, one of the things that we are doing is creating, 
especially with our cyber personnel management system, and the 
Title 6 that Senator Carper and Senator Coburn have given us, 
is the ability for folks to come in and out and not be tied to 
the grade.
    As you said, today--and this is pretty insane--you are a 
GS-11, you leave, you go out to private sector, you might solve 
all kinds of things, do all kinds of good things, get your 
Ph.D., come back in, and, well, congratulations, you are a GS-
11.
    What we have done with our new system is created the 
ability for them to come back in and pay them at the level at 
which they actually have brought back in additional experience, 
additional education, etc.
    And so having that ability will be a game-changer for us, 
because we will be able to keep track of these folks and almost 
have like a DHS alumni program, if you will, and the ability to 
keep track of them, and then encourage them to come back in, in 
a non-competitive way. We should not make them have to compete 
for the job again as well.
    Senator Lankford. Ms. Jones, is that something that we 
should have across all of government?
    Ms. Jones. I certainly think, yes, we do need to look at 
that. We have said, in many different reports for different 
agencies, that we need to look at ways to make hiring or 
rehiring Federal staff more flexible, so long as the agency has 
thought about the policies that they need to do it, or they are 
testing or measuring the impact that the change in the policy 
would make, and that they keep a good eye on it so that if 
something changes in the benefit to the agency over time they 
know that it is changing, and that they continue to meet the 
statutory requirements. But yes, more flexibility.
    Senator Lankford. Ms. Bailey, the USAJobs website is a 
really beautiful website. When you look at it, just the way it 
is laid out, very simple, very straightforward. What is the 
problem with USAJobs? Does it work for you?
    Ms. Bailey. There is not a problem with USAJobs it is 
basically an electronic jobs board. Back in the day, when I got 
hired, you went to the Unemployment Office and you pulled 
something off of a board on the wall. Now it is like an 
electronic board, right?
    The problem I see with USAJobs, is not the technology, but 
we have a post-and-pray system. So we post something on USAJobs 
and we just pray somebody finds it, and we pray that they 
understand what the job announcement says. We pray that they 
know what a 2210, 13 is.
    As a result, it is not conducive to the way people actually 
interact and find jobs. In the private sector, while they do 
use these posting on these job boards, they also have the 
opportunity to go hold a conference, or hold a training 
session, to network, to do different things and have different 
approaches to recruiting, to be able to actually get folks to 
apply for their jobs.
    Senator Lankford. So you are saying both/and, at this 
point?
    Ms. Bailey. Yes. I think it is both/and. Because I would 
not really want to throw out USAJobs because it does have--it 
has a means, but I also want the ability to go to a Black Hat 
conference, as an example, and be able to seek out cyber 
talent, ask for their resumes, get those resumes in, take a 
look at them, maybe interview them that night, in the lobby, 
and be able to offer them a job. We need that capability to be 
able to do that.
    USAJobs, though, certainly serves a purpose for some of our 
other positions, or even that position as well, because it just 
gives us, to your point, an ``and.''
    Senator Lankford. Mr. Sitterly, do you want to add to that?
    Mr. Sitterly. Mr. Chairman, I agree. I think there is a use 
for it as a bulletin board. I think the problem with USAJobs is 
our own problem internally, that when people apply for jobs we 
are not communicating back that they were considered and not 
found eligible, they were considered and referred, and so on.
    Senator Lankford. Is that agency to agency?
    Mr. Sitterly. That is agency to agency. In all fairness, 
there are jobs that you will get thousands, I mean, literally 
thousands of applicants for, which is one of the problems about 
an open and continuous recruiting. You have to be careful with 
that because you will get the same people that apply for every 
job out there.
    Senator Lankford. But that opening, that listing, or the 
posting is there, let's say, 2 weeks. It will say it is closing 
today, or it is closing whatever day it is. What is wrong with 
an automatic email going out to everybody saying, ``Hey, thanks 
for doing this. The consideration will be made. The decision be 
made. At this point you will be notified,'' and then when 
people are notified that that agency selects this group, and 
then another email goes out saying ``you were not picked for 
this?''
    Mr. Sitterly. That would be ideal, sir.
    Senator Lankford. Does anyone do that?
    Mr. Sitterly. I think they do, depending on the hiring 
authority, and looking, again, are you using the veteran's 
preference? Somebody has to go through that list to make 
determination whether or not the individual is in a particular 
group or not?
    Senator Lankford. Dr. Jones, do you know if that is done by 
any of the agencies on a consistent basis, just be able to 
notify individuals?
    Ms. Jones. I am not sure about that.
    Senator Lankford. It is a common courtesy that if you took 
the time to be able to go through the process you are not left 
out there on the line just waiting to be able to find out what 
happens, and I would assume would get more people actually 
engaged if they applied, and they engage, and then someone 
actually engaged back with them. Even if it is a form letter, 
just to say what is happening, it would certainly be helpful 
for those individuals, even to know it is closed; you did not 
get it, is a helpful notice, and most of them never even hear 
``you did not get it.'' It is just hanging out there for 
months. So that may be one thing we will want to talk about in 
the days ahead.
    Senator Lankford. They have called the second vote. You all 
are so lucky, because I have about 45 other questions to go. 
But we will follow up on them and we will go through these. The 
key thing is that I want to make sure as many practical ideas 
as you have, that you are willing to be able to share with us. 
Because we have to move from staring at and marveling at the 
problem to actually solving the problem.
    This Committee has talked the problem to death, and we have 
to get to what are the practical things to be there. You all 
know the things we get hung up on. It is veterans preference, 
it is competitive, it is allowing everybody to be engaged in 
the process, making sure no one is excluded, making sure 
agencies are trying to be as diverse as possible, to be able to 
reach out to as many different people as possible, and to be 
able to get a hiring process that does not take 107 days to be 
able to go through this straightforward process.
    Our concern is that everyone's interest is being fulfilled 
except for the applicants and except for the agencies. And if 
the agencies take this long to be able to get an applicant, 
people are not going to do it.
    I do not think I have shared with you all yet, but this all 
started for me about 5 years ago when I talked to the folks in 
McAlester, at the Army Ammunition Depot, and they were trying 
to hire forklift operators. And they were competing with the 
warehouses in town.
    And for the folks that are going to be a forklift operator, 
they cannot take 4 months to be able to get an answer if they 
are going to get a job working a forklift. Three warehouses in 
town have already offered them a job that afternoon, and when 
we finally call them back and say, ``We want you to do it,'' 
they are just loyal enough to their employer, they are not 
going to quit to come work at the Ammunition Depot, because 
this new person has hired them and trained them and they are 
committed to be there now.
    So it makes something overly hard that should not be that 
difficult. And so we want to see if we can actually move this 
to a faster pace.
    Anything that you all want to get on the record right now, 
before I have to be able to break us, and so I can run and go 
vote?
    Ms. Jones. There is one thing. You talked about diversity. 
All of the major agencies have to fill out a form, MD-715--it 
is an EEOC form--every year. They have to look and determine if 
there are any triggers which are limiting their ability to hire 
a diverse workforce. Then they have to identify barriers, and 
they have to look for solutions to any barriers that are 
impeding them from hiring people with particular 
characteristics.
    There are no targets except for people who have rather 
severe targeted disabilities. So you mentioned the problem of 
an agency wanting to hire a diverse workforce but then having 
to respond to the American public about whether I got my fair 
chance?
    So this is a process in which they compare the demographic 
characteristics of their agency employees to the demographic 
characteristics of the relevant civilian labor force. So it is 
not the whole labor force. It is the one which can be compared, 
or ones that can be compared to the labor force of the agency.
    So they have to do it. If someone comes to them and says, 
``We did not get our fair chance,'' they can at least say that 
they went through this process and they are aware of where, 
perhaps, maybe they are not getting as many representatives of 
a particular demographic group as the relevant civilian labor 
force has.
    So it is not going to necessarily satisfy everybody, but it 
is an analytical exercise that if done properly, can help them 
figure out how to diversify their labor forces.
    Senator Lankford. OK. Thank you.
    Ms. Bailey. Just real quick, three things. One, I could not 
agree with you more. I just want to see us stop admiring the 
problem and actually tackle the solutions. Two, I would love to 
work with you and have you champion our DHS Enhanced Hiring Act 
so that we can simplify this process, because I think it is 
well worth it. And three, the DHS workforce deserves our full 
support. They have an incredibly hard mission and some really 
pretty difficult and challenging times. And so anything we can 
do to work together to make sure that we support them and their 
families is very much appreciated.
    Thank you, Chairman.
    Senator Lankford. Thank you.
    Mr. Sitterly. Thank you, Mr. Chairman. I will just add that 
this Congress gave the Department of Defense pilot authority to 
certify their own qualification review boards (QRBs) for their 
senior executives. When a senior executive under Title 5 
applies for a job they have to submit three documents--their CV 
or their resume, their technical qualifications, and then what 
is called executive core qualifications (ECQs).
    Presently, those all go to OPM to be graded. Most 
organizations hire contractors, or the candidate hires a 
contractor to do it. It is a writing test, whether or not you 
can spell. I would ask that you consider giving the other 
Federal agencies some authorities on a pilot basis to do our 
own certification of the QRBs, as well. Thank you.
    Senator Lankford. Do you think, by the way, most of those 
applicants actually write their own stuff, or they are hiring 
someone to write their materials for them?
    Mr. Sitterly. Sir, most of the Federal Government hire 
contractors to help them write, at government expense, and, 
frankly, it is a barrier to getting people from outside of the 
Federal Government in. The answer is no, they are not writing 
it.
    Senator Lankford. That whole process itself, I think, is a 
problem.
    Mr. Sitterly. So, sir, you gave the DOD a 50-person pilot. 
We would love to have the same one. That will help expedite the 
hiring of some of our medical center directors as well.
    Senator Lankford. OK. Alright. That is very fair. Quite 
frankly, it is one of my great frustrations that we all pretend 
that is a document that everyone is writing, and we all quietly 
wink and nod and know it is not. So I want to be able to try to 
get that done.
    Let us keep the ongoing conversation. We have very good 
staff that engages on these areas and we are trying to gather 
it out. We will go through the proposed legislation that you 
have gone, to be able to look at the enhanced hiring from DHS, 
to be able to see what fits there, or what could be a broader 
experiment for the entire Federal Government.
    But we have to be able to move this. And any ongoing 
dialogue that we can have, both with OPM, colleagues on both 
the Republican and Democrat side, would be exceptionally 
helpful, because this is not a partisan issue. This is all of 
government. It is not new in this Administration. It has been 
growing and has been an issue for a long time. So we will try 
to be able to work together see if we cannot solve this.
    That does conclude today's hearing. I do want to thank all 
of you for your testimony. I do appreciate very much the work 
that you put into preparing for this and being a part of this 
dialogue today.
    The hearing record remains open for 15 days until the close 
of business on Wednesday, August 14, for the submission of 
statements and questions for the record.
    This hearing is adjourned.
    [Whereupon, at 3:35 pm., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------  
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             



                                 <all>
</pre></body></html>
